                                        OFFICE OF INSPECTOR GENERAL
                                                                MEMORANDUM




DATE:         January 7, 2004

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report on Audit of the E-rate Program at Navajo Preparatory School, Inc.

The Office of Inspector General (OIG) has completed an audit the E-rate Program
benefits received by Navajo Preparatory School, Inc. (the School), a beneficiary of the
Universal Service Fund (USF). A copy of the Audit Report, entitled “Final Report on
Audit of the E-rate Program at Navajo Preparatory School, Inc.” is attached. The
objective of this audit was to assess the beneficiary’s compliance with the rules and
regulations of the USF program and to identify areas in which to improve the program.

In January 2003, the OIG and the Universal Service Administrative Company (USAC)
entered into a Memorandum of Understanding (MOU) with the Department of Interior
(DOI) OIG to conduct audits of E-rate beneficiaries. This audit was conducted by DOI
OIG under the terms of this MOU.

Based on the results of the audit, we have concluded that the School did not comply with
the requirements of the E-rate program for funding year 2001. The audit resulted in eight
(8) findings and $1,000,592 in potential fund recoveries. In light of the multitude and
severity of findings and systemic noncompliance with Commission rules and program
requirements, we recommend that the Wireline Competition Bureau direct the Universal
Service Administrative Company (USAC) to recover the full amount of $2,084,399.45
disbursed on behalf of Navajo Preparatory School, Inc. in funding year 2001. In addition,
we recommend that the Wireline Competition Bureau take steps to ensure that funding
requests are adequately reviewed in accordance with existing program rules and
implementing procedures to ensure that funding requests associated with such systemic
noncompliance with program rules and regulations are not approved. Further, we
recommend that the Wireline Competition Bureau review those program rules and
implementing procedures governing the areas of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect the
interests of the fund.
                United States Department of the Interior
                           OFFICE OF INSPECTOR GENERAL
                                  External Audits Division
                            12030 Sunrise Valley Drive, Suite 230
                                     Reston, VA 20191

                                                                                 January 7, 2004


                             AUDIT REPORT
Memorandum

To:        Inspector General
           Federal Communications Commission

From:      Joseph Ansnick
           Director of External Audits

Subject:   Final Report on Audit of the E-rate Program at Navajo Preparatory School, Inc.
           (No.R-GR-FCC-0005-2003)

       This report presents the results of our audit of the E-rate Program benefits received by
Navajo Preparatory School, Inc. (the School or Navajo Prep), from the Universal Service Fund
(USF). The E-rate Program provides discounts on the cost of obtaining communication services,
such as basic phone service; internet access; and internal connections (wiring and network
equipment), to eligible schools and libraries. The objectives of this audit were to determine
whether the School complied with the rules and regulations of the E-rate Program and to identify
Program areas which may need improvement. We conducted this review in accordance with the
Memorandum of Understanding between the Department of the Interior Office of Inspector
General, the Universal Service Administrative Company, the Federal Communications
Commission Office of Managing Director, and the Federal Communications Commission (FCC)
Office of Inspector General (OIG).

       We concluded that the School did not comply with the requirements of the E-rate
Program for the Funding Year 2001. The audit resulted in eight (8) findings and $1,000,592 in
potential fund recoveries. In a draft of this report we recommended that the FCC OIG take the
necessary actions to ensure that the report findings are resolved and to seek recovery of USF
funds disbursed on behalf of the School as determined to be appropriate. We consider our
recommendation to be resolved based on the recommendations contained in FCC OIG’s
November 25, 2003, memorandum transmitting our draft report to the Wireline Competition
Bureau and the Bureau’s December 11, 2003 response, concurring with the recommendations.

        We held an exit conference on September 23, 2003 with the School’s representatives to
discuss a preliminary draft of this report, which was provided to the School on September 16,
2003. The School’s September 22, 2003, response (Appendix 6) to the preliminary draft report
expresses overall disagreement with many of the report’s findings, especially to our questioning
costs of over $1 million related to services installed in ineligible buildings. The School’s
specific responses and our replies are presented after each finding.
Final Report on Audit of the E-rate Program at Navajo Preparatory School



       If you have any questions regarding this report, please contact me at (703) 487-5345 or
Mr. James Duff, FCC Audit Coordinator, at (703) 487-5350.




                                               2
Final Report on Audit of the E-rate Program at Navajo Preparatory School



              EXECUTIVE SUMMARY
        Under the E-rate Program, the Schools and Library Division (SLD) of FCC committed
about $2.3 million to Navajo Prep, located in Farmington, New Mexico, for Funding Year 2001
(July 1, 2001 to June 30, 2002). Funding commitments under the E-rate Program provide for
discounts on eligible services such as telecommunication services, internet access, network
equipment, and the wiring of instructional buildings and classrooms to connect to the internet.
We found that the School was out of compliance with key requirements of the E-rate Program
and identified costs of approximately $1 million that were disbursed for ineligible services, as
discussed below:

Technology Plan                An FCC Order requires that E-rate Program discounts must be
Was Not Properly               based on an approved technology plan. The School did not submit
                               its Technology Plan for approval to the Bureau of Indian Affairs
Approved or
                               (BIA) Office of Indian Education Programs (OIEP) until it prepared
Adequately                     its Funding Year 2003 E-rate application in March 2003, 28 months
Prepared                       after it indicated in its Funding Year 2001 application that it had an
                               approved technology plan. In addition, the Plan did not adequately
                               address all five of the required criteria for a plan established by the
                               FCC. As a result, the School did not meet the requirements for
                               E-rate Program discounts for Funding Year 2001.

Discount Rate                  FCC regulations require that at least 75 percent of a school’s
Was Not                        students qualify for free or reduced price lunches under the National
                               School Lunch Program (NSLP) for the school to qualify for the
Supported
                               90 percent discount rate. The School claimed that 100 percent of its
                               students qualified for the NSLP; however, information from the
                               State of New Mexico showed that 72.4 percent of the School’s
                               students qualified for the NSLP. As a result, the School would have
                               qualified for a discount rate of only 80 percent for Funding Year
                               2001.

Service Contract Was FCC regulations require schools to seek competitive bids in
Not Competitively    addition to following state and local competitive bid requirements
                     when obtaining goods and services. Our review disclosed,
Awarded
                               however, that the School awarded a sole-source contract to its
                               service provider in violation of school requirements. Consequently,
                               there was no assurance that goods and services were obtained at a
                               fair and reasonable price.

Services Were Put              FCC regulations provide that a service is eligible for discount
In Ineligible                  support as a component of an institution’s internal connections if
                               such service is necessary to transport information within one or
Buildings
                               more instructional buildings of a single school campus. We found




                                                i
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                               that internal connections were installed in seven non-instructional
                               buildings (five dormitories, the business office, and the cafeteria).
                               As a result, we questioned the approximately $1 million cost of
                               internal connections for these seven buildings.

Buildings Were                 USAC approved funding for contracted services to install internal
Not Wired                      connections in 17 buildings. For instance, such services would
                               consist of running cables from the main distribution frame to
                               intermediate distribution frames in each building and the hardware
                               and wiring within each building. However, we determined that
                               such services were not installed in five buildings even though the
                               service provider and the School indicated that all contract work had
                               been performed and billed.

Equipment Was                  USAC approved funding for contracted services for specific
Not Installed as               hardware (manufacturer, model, configuration, and quantity of
                               each) that would be installed under internal connections in the
Approved
                               17 buildings. Our inventory of the contractor’s as-built system
                               showed that numerous changes in quantities and product
                               substitutions occurred without obtaining USAC approval of the
                               changes or substitutions. As a result, there is no assurance that all
                               contracted services were received and that only eligible services
                               received discount funding.

The School’s                   FCC regulations require schools to certify that they can pay for any
Program Support                necessary hardware or software and complete essential staff training
                               needed to effectively use the acquired communication services and
Funding Appears
                               systems. The School could not demonstrate that it had adequate
Insufficient                   resources to utilize the system.

Applications for               We found that the School’s applications for service requested a
Services Were                  network and wiring based on more classrooms and instructional
                               buildings than exist, more students than actually are or are expected
Inflated and
                               to be enrolled, and more computers to connect to the network than
Services Installed             exist or are budgeted to be purchased. As of May 2003, only
Were Underutilized             10.4 percent of network system capacity was being utilized in the
                               classroom for instructional purposes. An additional 10.4 percent of
                               the network system capacity was being used for administrative or
                               ineligible purposes.


        On the positive side, we noted that the School met its matching funds requirement. FCC
regulations require schools to certify they have funding to pay for the non-discounted portion of
requested internal connections. The School paid the service provider a total of $249,876 for the
non-discounted portion of the internal connections contract price.




                                                ii
Final Report on Audit of the E-rate Program at Navajo Preparatory School



       We concluded that the School did not comply with the requirements of the E-rate
Program for the Funding Year 2001. The audit resulted in eight (8) findings and $1,000,592 in
potential fund recoveries. We recommend that the FCC Office of Inspector General take the
necessary actions to ensure that the report findings are resolved and to seek recovery of USF
funds disbursed on behalf of the School as determined to be appropriate.

        We held an exit conference on September 23, 2003 with the School’s representatives to
discuss a preliminary draft of this report. The School’s September 22, 2003, response
(Appendix 6) to the preliminary draft report expresses overall disagreement with many of the
report’s findings, especially to our questioning costs of over $1 million related to services
installed in ineligible buildings. The School’s specific responses and our replies are presented
after each finding.




                                                iii
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                                 T
                                                 Taabbllee ooff C
                                                                Coonntteennttss
                                                                                                                                   Page

   INTRODUCTION ............................................................................................................        1
        Background ...........................................................................................................      1
        Objective and Scope .............................................................................................           2
   RESULTS OF REVIEW ...................................................................................................            4
        Summary ................................................................................................................    4
        Technology Plan Was Not Properly Approved or Adequately Prepared .............                                              5
        Discount Rate Was Not Supported ........................................................................                    8
        Service Contract Was Not Competitively Awarded .............................................                                9
        Services Put in Ineligible Buildings ......................................................................                11
        Buildings Were Not Wired ...................................................................................               13
        Equipment Was Not Installed as Approved ..........................................................                         14
        The School’s Program Support Funding Appears Insufficient .............................                                    15
        Applications for Services Were Inflated and the Services
           Installed Were Underutilized ..........................................................................                 16
        Non-Discounted Portion Paid by School ..............................................................                       18
        Other Matters ........................................................................................................     18

   APPENDICES
     1. Schedule of Questioned Costs for Navajo Preparatory School, Inc. E-rate
        Commitment for Funding Year 2001, July 1, 2001 through June 30, 2002 .........                                             21
     2. Details of Local Area Network Questioned Costs for Ineligible Intermediate
        Distribution Frames ..............................................................................................         22
     3. Calculation of Questioned Costs for Intermediate Distribution Frames by
        Equipment Categories ...........................................................................................           23
     4. Calculation of Questioned Costs for Trenching, Cabling, and Termination
        Related to Ineligible Intermediate Distribution Frames ........................................                            24
     5. USAC Approved Form 471 Equipment and Services Compared to As-Built
        Installed Equipment and Services .........................................................................                 26
     6. Navajo Preparatory School, Inc., Response to the Exit Conference Discussion
        Preliminary Draft Report. .....................................................................................            30
     7. Navajo Prep July 28, 2003, Letter Regarding Drops in the New Dormitories .....                                             36

   ACRONYMS

BIA........Bureau of Indian Affairs                                     OIG .......Office of Inspector General
DOI .......Department of the Interior                                   OMD .....Office of Managing Director, FCC
FCC .......Federal Communications Commission                            SLD .......Schools and Library Division of USAC
IDF .......Intermediate Distribution Frame                              USAC....Universal Service Administrative Company
MDF......Main Distribution Frame                                        USF .......Universal Service Fund
NSLP.....National School Lunch Program                                  OIEP......Office of Indian Education Programs
MOU .....Memorandum of Understanding




                                                                      iv
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                 Introduction
   Background                   The Universal Service Fund (USF) provides affordable access to
                                eligible communications services for schools, libraries, rural
                                health care providers, low-income consumers, and companies
                                serving high-cost areas. On May 7, 1997, the Federal
                                Communications Commission (FCC) adopted a Universal Service
                                Order implementing the Telecommunications Act of 1996,
                                including the E-rate Program of the USF.

                                The Universal Service Administrative Company (USAC) is
                                responsible for administering the USF under the direction of the
                                FCC’s Wireline Competition Bureau. The Schools and Library
                                Division of USAC administers the E-rate Program. Under the
                                E-rate Program, eligible schools and libraries may receive
                                discounts from 20 to 90 percent of the cost of eligible
                                communication services, depending on economic need and
                                location of the beneficiary.

                                Discounts may be applied to three kinds of eligible
                                communication services:

                                 • Telecommunication services, including basic phone service.
                                 • Internet access.
                                 • Internal connections, including wiring and network
                                   equipment needed to bring information directly to classrooms
                                   or library patrons.

                                In accordance with the Inspector General Act of 1978, as
                                amended, the FCC-Office of Inspector General (OIG) has
                                oversight responsibilities for the USF as a Federal program of the
                                FCC. The FCC-OIG has designed a plan of audit oversight to
                                provide FCC management with a reasonable level of assurance
                                that E-rate beneficiaries are complying with E-rate Program rules
                                and regulations and that E-rate Program controls are adequate to
                                prevent fraud, waste, and abuse.

                                We conducted this review in accordance with a Memorandum of
                                Understanding (MOU) between the Department of the Interior
                                (DOI)-OIG, USAC, FCC-Office of Managing Director (OMD),
                                and the FCC-OIG. Under the MOU, DOI-OIG will apply specific
                                procedures for the audit of beneficiaries of E-rate Program funds.




                                                 1
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                Navajo Prep was established in 1991 by the Education Committee
                                of the Navajo Nation Council (Resolution ECMY-33-91). The
                                School is incorporated under the Navajo Nation Corporation
                                Code and the New Mexico State Corporation Commission as a
                                non-profit organization under Section 501(c)(3) of the IRS Code.
                                The North Central Association, Commission on Schools, and the
                                New Mexico State Department of Education accredit the School.

                                The School is located in Farmington, New Mexico on the
                                82.45acre site of the former campus of the Navajo Methodist
                                Mission School. The Navajo Nation purchased this site in 1993
                                from the Women’s Division of the General Board of Global
                                Ministries of the United Methodist Church. The site is now the
                                home of the School under a 99-year lease with the Navajo Nation.

                                The School operates under a grant awarded by the BIA under the
                                auspices of Public Law 100-297, Tribally Controlled Schools Act
                                of 1988.

   Objective and                Our objectives were to determine whether the School complied
   Scope                        with the rules and regulations of the E-rate Program and to
                                identify Program areas that may need improvement.

                                The scope of the review was designed to test school compliance
                                with the E-rate Program requirements contained in Title 47, Part
                                54 of the Code of Federal Regulations (47 CFR § 54.500 through
                                47 CFR § 54.520) which provide that:

                                 • The school certifies it has an approved technology plan.
                                 • The school determines its discount percentage based on the
                                   percentage of its student enrollment that is eligible for a free
                                   or reduced price lunch under the national school lunch
                                   program or a federally-approved alternative mechanism.
                                 • Services rendered comply with the school’s application for
                                   E-rate funds and are installed or provided before the
                                   installation deadline.
                                 • The school used a competitive process to select the most cost
                                   effective service provider.
                                 • The school purchased equipment and services in accordance
                                   with applicable procurement rules and regulations.
                                 • The applicant pays its portion of the pre-discounted costs.
                                 • The school certifies it has adequate resources to use the
                                   discounted services for which funding has been provided.
                                 • The school certifies that it has complied with all of the E-rate
                                   Program rules.




                                                 2
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                On September 4, 2001, USAC committed a total of $2,322,097.61
                                to the School for Funding Year 2001. Payment of costs under the
                                internal connection commitment has been extended to September
                                30, 2003. As of July 14, 2003, USAC had disbursed
                                $2,084,399.45 to the service provider for internal connections.
                                Funds USAC committed and disbursed for Funding Year 2001 by
                                service type follows:

                                Funding       Amount           Amount
                                 Year        Committed        Disbursed        Service Type
                                  2001           $2,883.60        -0-        Telecommunications
                                  2001       $2,243,590.65 $2,084,399.45 Internal Connections
                                  2001          $63,923.40        -0-        Internet Access
                                  2001          $11,699.96        -0-        Telecommunications
                                TOTALS       $2,322,097.61 $2,084,399.45


                                We performed our review during the period April through
                                September 2003. We visited the School in April and May 2003 to
                                conduct an entrance conference with the School administration, to
                                perform site inspections and verifications of the equipment
                                installed by the service provider, and to obtain additional
                                documentation needed for our review. We conducted an exit
                                conference at the School on September 23, 2003.

                                This review was conducted in accordance with Government
                                Auditing Standards issued by the Comptroller General of the
                                United States. As part of the scope of our review, we obtained an
                                understanding of the specific management controls relevant to the
                                E-rate Program. Because of inherent limitations, a study and
                                evaluation made for the limited purposes of our review would not
                                necessarily disclose all material weaknesses in the control
                                structure.




                                                 3
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                   RESULTS OF REVIEW
                                We found that the School:
   Summary
                                  ¾ Did not have a properly approved or prepared technology plan
                                    and, therefore, did not meet one of the key requirements for
                                    E-rate Program assistance.

                                  ¾ Could not support the basis for the discount rate claimed and
                                    thus received 10 percent more E-rate Program assistance than
                                    it qualified for.

                                  ¾ Awarded non-competitively a $2.5 million contract for
                                    internal connections.

                                  ¾ Put internal connections in seven buildings that are not eligible
                                    for E-rate Program assistance at a cost of more than
                                    $1 million.

                                  ¾ Wired only 12 of 17 buildings that were approved for E-rate
                                    Program assistance.

                                  ¾ Installed equipment that was different from the equipment
                                    approved for E-rate Program assistance.

                                  ¾ Did not demonstrate that it has the funding to purchase the
                                    equipment and staff training needed to effectively use the
                                    internal connections.

                                  ¾ Applied for (on FCC Forms 470 and 471) and received E-rate
                                    Program assistance based on significantly more facilities than
                                    actually exist and for more students than will be enrolled in the
                                    school.

                                  ¾ Met its matching share requirement of about $250,000 for the
                                    non-discounted portion of the services provided.

                                In addition, we identified reportable conditions that, while not
                                material, represent weaknesses in the School’s administration of the
                                E-rate Program. These reportable conditions are discussed in the
                                other matters section of this report.




                                                 4
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                The School’s technology plan had not been approved by the Bureau
   Technology Plan     of Indian Affair’s (BIA) Office of Indian Education Programs
   Was Not Properly    (OIEP) and the technology plan did not meet the five criteria for
   Approved or         plan approval as established by the FCC.
   Adequately Prepared
      Lack of Proper            Title 47 CFR § 54.504(b)(2)(vii) requires schools to certify that
      Approval                  they have a technology plan that has been certified by its state, the
                                Administrator, or an independent entity approved by the
                                Commission. Schools and Library Division of USAC (SLD) has
                                determined that the preferred approver for BIA school plans is
                                OIEP. Furthermore, an applicant must certify that its plan was
                                approved by an SLD certified technology plan approver. In
                                addition, the Telecommunications Act of 1996 and FCC Order 97-
                                157 require that requests for Universal Service Program discounts
                                be based on an approved technology plan.

                                The School’s Executive Director certified on January 2, 2001 and
                                January 16, 2001, on the School’s Forms 470 and 471, respectively,
                                that the School had an approved technology plan. In addition, on
                                October 19, 2001, the School’s Executive Director certified on the
                                School’s Form 486 that OIEP had approved the School’s
                                Technology Plan.

                                In response to our written request for its technology plan and
                                approval letter, the School sent us copies of its “School Wide
                                Technology Plan,” dated September 2000, and a Resolution of the
                                School’s Board of Trustees approving the “School Wide
                                Technology Plan”. However, the School had not requested OIEP to
                                review its technology plan until March 17, 2003, as part of its
                                Funding Year 2003 E-rate application, 28 months after indicating in
                                its Funding Year 2001 Form 470 application that it had an approved
                                technology plan. Moreover, the School submitted its Technology
                                Plan to an OIEP representative at BIA’s Shiprock Agency Office
                                who was not a SLD-certified technology plan approver. As a result,
                                the School’s technology plan was not approved by an authorized
                                official. Consequently, lacking a properly approved technology
                                plan, the School did not meet the requirements for requesting E-rate
                                Program discounts.

      Lack of Adequate          For technology plans to be approved, FCC Order 97-157 requires
      Plan Elements             that it must:

                                  • Establish clear goals and a realistic strategy for using
                                    telecommunications and information technology to improve
                                    education;




                                                 5
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                    • Have a professional development strategy to ensure that staff
                                      know how to use these new technologies to improve education;

                                    • Include an assessment of the telecommunication services,
                                      hardware, software and other services that will be needed to
                                      improve education services;

                                    • Provide for a sufficient budget to acquire and support the non-
                                      discounted elements of the plan: the hardware, software,
                                      professional development, and other services that will be
                                      needed to implement the strategy; and

                                    • Include an evaluation process that enables the school to
                                      monitor progress toward the specified goals and make mid-
                                      course corrections in response to new developments and
                                      opportunities as they arise.

                                Our review of the School’s technology plan disclosed that it did not
                                satisfy all of the requirements. We identified problems as follows:

          “Canned”              Parts of the School’s technology plan appeared to have come from a
          Technology            “canned” technology plan that did not specifically apply to the
          Plan                  School. For example,

                                •     In the “Aligning Technology to the Curriculum” section, the
                                      plan states, “Each student at the K-8 level should be assured of
                                      receiving training in keyboarding…” However, the School does
                                      not serve grades K-8; rather, its students are in grades 9-12.

                                •     In the “Base Level” section, the plan states that, “The following
                                      are the recommended base levels of technology related
                                      equipment per building, …

                                                              Instructional Areas
                                         •   A minimum of five (15) (sic) new computers for the
                                             Media Center…
                                         •   A CAD/Multi Media Development lab with a minimum
                                             of thirty (30) computers…
                                         •   Ten (10) Computer Labs…

                                                          Media Center
                                         •   Two Labs with a minimum of thirty (30) computers
                                             each…”




                                                   6
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                 The Plan recommendations for 13 computer labs and 390 computers
                                 per building, appears unreasonably high for a school that claims to
                                 have 15 instructional buildings and 206 students.

                                 •   The funding for this Base Level is “to be facilitated through
                                     bond issues and general operating sources”. This sounds like
                                     funding sources for a public school district. Navajo Prep does
                                     not issue bonds. As a BIA funded grant school, it receives
                                     Federal funds for most of its annual operations.

                                 •   “The ‘E-Rate’ Budget” section states, “the budget allows for the
                                     purchase of a School Wide Productivity Software program such
                                     as Microsoft Office Professional.” However, such software is
                                     specifically ineligible under the E-rate Program.

                                 •   The “Bid/State Contract Specifications” section states that “Bid
                                     specifications will be written by … the School’s Technology
                                     Planner and Designer ...” We found that the School did not
                                     prepare bid specifications or request proposals.

          Insufficient Budget    The technology plan does not explain how the School will develop
          Detail                 a budget sufficient to acquire and support the non-discounted
                                 elements of the plan consisting of the hardware, software,
                                 professional development, and other services that will be needed to
                                 implement the strategy. The plan contains a generalized discussion
                                 of a budget to provide a substantial amount of end user equipment,
                                 such as computers, printers, monitors, scanners, other computer
                                 peripherals, but the specific number, type, and cost of equipment is
                                 not provided.

          Appendix of Budget The “Replacing and Updating Equipment Budget” section states
          Details Referenced in that “Appendix H details estimated costs for updating and replacing
          Plan Non-existent     equipment in the future based on amortization schedules.” There is
                                no Appendix H in the Plan, which ends with Appendix E.

          Inadequate             The Plan does contain sections which discuss goals, professional
          Evaluation Process     development, and the services and equipment needed to improve
                                 education at the school; however, much of the discussion is general
                                 and overall, lacks specific goals and milestones. Consequently, we
                                 could not determine whether the Plan, combined with E-rate
                                 Program funding, will achieve specific results. This lack of detail
                                 emphasizes the need for a critical review and approval process.




                                                  7
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                In addition, the Plan does not include a process to enable the School
                                to monitor progress toward achieving the specified goals and
                                making mid-course corrections in response to new developments
                                and opportunities as they arise.

      Navajo Prep’s             The response stated that:
      Comments
                                      The School Technology Plan . . . was approved by the
                                      Board of Trustees by a resolution dated October 5,
                                      2000. The School was unaware that further review and
                                      approval was required by an SLD-certified approver.
                                      On March 17, 2003, the Year 6 technology plan was
                                      submitted to the Shiprock Agency, Office of Indian
                                      Affairs Programs, and was approved by an official;
                                      however, the plan was determined not to meet the
                                      requirements of the E-rate program.

                                The response also advised that the technology plan would be
                                revised to meet all requirements by the end of December 2003.
                                (See Appendix 6, page 30, item number 1, for the School’s
                                complete response to this finding.)

      Office of Inspector       The Funding Year 2003 technology plan was the same plan
      General’s Reply           provided to us for Funding Year 2001, which was not adequately
                                prepared or approved.

                                Title 47 CFR § 54.505 Discounts, stipulates that the level of
   Discount Rate Was            discount on the cost of eligible services that a school may qualify
   Not Supported                for is based on the percentage of its students who qualify for free or
                                reduced price lunches under the National School Lunch Program
                                (NSLP) or a federally-approved alternative mechanism. The School
                                claimed on the Form 471, “Services Ordered and Certified,” that
                                100 percent of its students qualified for the NSLP and that it
                                therefore qualified for a 90 percent discount rate. The School did
                                not provide documentation supporting the 100 percent NSLP claim.
                                According to information provided to us by the State of New
                                Mexico, Department of Education, Student Nutrition Programs
                                Unit, at the time the School filed its Form 471 about 72.4 percent of
                                the School’s students qualified for the NSLP. As a result, the
                                School would have qualified for a discount rate of 80 percent.




                                                 8
Final Report on Audit of the E-rate Program at Navajo Preparatory School


      Navajo Prep’s             The response stated:
      Comments
                                    The School contends that it meets this requirement [for a 90
                                    percent discount] through the Provision 2 Guidance for
                                    Disclosure of Free and Reduced Price Lunch Eligibility
                                    Information. Under Provision 2 the National School Lunch
                                    Act allows schools that offer student lunches at no charge
                                    regardless of income, to collect free and reduced price
                                    applications once every four years or longer if extensions
                                    are granted. . . . According to the New Mexico Student
                                    Nutrition Programs Unit, all students in Provision 2 schools
                                    are considered “economically disadvantage” or free.

                                (See Appendix 6, page 30, item number 2, for the School’s
                                complete response to this finding.)

      Office of Inspector       According to the Code of Federal Regulations (47 CFR § 54.505),
      General’s Reply           the level of the discount “shall be determined by indicators of
                                poverty and high cost.” For schools, “the level of poverty shall be
                                measured by the percentage of their student enrollment that is
                                eligible for a free or reduced price lunch under the national school
                                lunch program or a federally-approved alternative mechanism.”
                                Navajo Prep has no federally-approved alternative mechanism,
                                therefore we used Provision 2 base year data of the number of
                                Navajo Prep students who qualified for free or reduced lunch to
                                determine the discount rate. The period covered by the Provision 2
                                base year data coincided with the period to be used for the filing of
                                the Form 471. As a result, based on the matrix in Title 47 CFR
                                §54.505, Navajo Prep qualifies for a discount rate of 80 percent
                                based on the 72.4 percent of its students who qualify for free or
                                reduced school lunch.

                                The School did not follow its local competitive procurement rules
   Service Contract Was and regulations to maximize competition. Title 47 CFR § 54.504(a)
   Not Competitively    requires schools to seek competitive bids, pursuant to the
   Awarded              requirements established in subpart 54.504(a). However, these
                                competitive bid requirements apply in addition to state and local
                                competitive bid requirements. The FCC competitive bid system
                                consists of posting the applicant’s completed FCC Form 470, which
                                describes the services requested, to an internet website. Prospective
                                service providers may contact the applicant for additional
                                information and/or submit a bid to the school for the requested
                                services. To give prospective service providers time to submit bids,
                                the applicant must wait 28 days after the internet posting before
                                entering into a contract.




                                                 9
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                The School did comply with the FCC requirement to wait 28 before
                                entering into a contract. We found that on December 5, 2000,
                                USAC posted the School’s Form 470 application on the website.
                                Twenty-nine days later, on January 3, 2001, the School entered into
                                a pre-discounted $2,498,760 contract with Norstan
                                Communications (Norstan). The School did not have
                                documentation to indicate whether it received any other inquires or
                                bids as a result of the website posting, despite requirements to do
                                so. Title 47 CFR § 54.516, Auditing, (a) Record Keeping
                                Requirements, states that “Schools and Libraries shall be required
                                to maintain for their purchases of telecommunications and other
                                supported services at discounted rates the kind of procurement
                                records that they maintain for their other purchases.”

                                The School’s policy as contained in its accounting manual is to
                                comply with all Federal bidding and procurement requirements
                                contained in Title 25 CFR § 276.12. Title 25 CFR § 276.12
                                requires the school to obtain maximum competition and to select
                                the contractor whose offer is most advantageous to the school, price
                                and other factors considered. Also, the School is required to
                                maintain records of the competitive process followed and
                                justification for contractor selection and the basis for any cost or
                                price negotiation. The School did not have any such records.

                                School personnel told us that they believed that they did not need to
                                maximize competition because Norstan was an approved supplier
                                for the Cooperative Educational Services (Cooperative) of New
                                Mexico and because Norstan offered a comprehensive proposal.
                                The Cooperative is an educational organization that obtains goods
                                and services for member New Mexico schools. We found that the
                                Cooperative does have a competitively awarded contract with
                                Norstan which allows member schools to place orders under the
                                contract. However, the School was not a member of the
                                Cooperative and did not place an order under the Cooperative’s
                                contract. Instead, the School awarded a sole-source contract to
                                Norstan that was separate and independent from the Cooperative’s
                                master contract. As a result, the School did not maximize
                                competition and did not document the process it followed or basis
                                for selecting Norstan. Consequently, there is no assurance that the
                                School’s contract price was fair and reasonable.




                                                10
Final Report on Audit of the E-rate Program at Navajo Preparatory School


      Navajo Prep’s             The response said that the School met the requirement for posting
      Comments                  its Form 470 on the FCC website for 28 days and contracted with
                                Norstan Communications in January 2001 “with the understanding
                                that Norstan is an approved supplier as a member of the New
                                Mexico Cooperative Educational Services (CES)” and that “CES
                                provides assurance that contract prices are fair and reasonable.”
                                The response also stated that the School became a member of CES
                                in March 2003. (See Appendix 6, page 31, item number 3, for the
                                School’s complete response to this finding.)

      Office of Inspector       The School’s assumption that the contract price offered by Norstan
      General’s Reply           is fair and reasonable because Norstan is an approved CES supplier
                                is not supported. The School’s orders were not placed under
                                Norstan’s contract with CES and the School had no analysis or
                                documentation to show that prices offered by Norstan to the School
                                were equal to or better than the prices offered to CES members.

                                The School installed internal connections in seven buildings that
   Services Put in              were not eligible for service. Title 47 CFR § 54.506 states:
   Ineligible Buildings
                                      “A service is eligible for support as a component of an
                                      institution’s internal connections if such service is
                                      necessary to transport information within one or more
                                      instructional buildings of a single school campus….
                                      Discounts are not available for internal connections in
                                      non-instructional buildings of a school…unless those
                                      internal connections are essential for the effective
                                      transport of information to an instructional building of a
                                      school….”

                                None of the seven buildings contain classrooms or are essential for
                                the transport of information to instructional buildings. Specifically,
                                the buildings consisted of five dormitories, (of which four were new
                                and under construction), the business office, and the cafeteria. The
                                installation of internal connections in ineligible buildings appears to
                                have been planned because the School’s application and its
                                communications with USAC show these buildings as instructional
                                buildings having classroom facilities. For example, the site plan
                                prepared by Norstan had the new dormitories labeled as “Lab #1
                                thru 4” whereas the rest of the permanent buildings on site were
                                identified only by a number. As a result, we questioned the
                                $1,000,592 cost of internal connections for these seven buildings.
                                See Appendices 1, 2, 3, and 4 for our calculations of the questioned
                                cost of internal connections.




                                                11
Final Report on Audit of the E-rate Program at Navajo Preparatory School


      Navajo Prep’s             The School responded that the “cafeteria was considered an
      Comments                  instructional building for study hall and tutorial sessions” and that
                                the business office “was cabled to an existing network and was
                                upgraded for compatibility with the rest of the school.” Regarding
                                the dormitories, the response said that “Navajo Preparatory School
                                does not fit into the ‘traditional’ school category” and that the
                                “school’s regular academic college preparatory program extends
                                into the evening program into after hours instruction, tutoring and
                                study hall in the dormitories.” In a July 28, 2003 letter (See
                                Appendix 7, page number 36, for the School’s complete letter.) to
                                our office, Navajo Prep stated that new dormitories “have been
                                designed to have two classroom labs to provide students with a
                                variety of schedules for learning and delivery of continuous
                                educational program[s]” for after-school tutoring, computer classes,
                                scholastic aptitude testing, and independent research. (See
                                Appendix 6, page 31, item number 4, for the School’s complete
                                response to this finding.)

      Office of Inspector       Overall, we noted that Navajo Prep’s applications to USAC
      General’s Reply           represented that these seven buildings were instructional buildings
                                having classroom facilities. However, our examination of the
                                buildings did not identify any classrooms or find that the buildings
                                were essential for the effective transport of information to
                                instructional buildings.

                                In the cafeteria, we found eight data drops in the dining area;
                                however, there were no computer resources available for study halls
                                or tutoring. Regarding the business office, information provided by
                                Norstan and the cabling subcontractor showed that trenching was
                                done from the Main Distribution Frame (MDF) to the Business
                                Office, conduit was installed, and cables were pulled from the
                                MDF. An Intermediate Distribution Frame (IDF) and wiring for
                                drops were installed. The Business Office was connected to the
                                new LAN. However, the School’s technician did not indicate at any
                                time that any existing network was being used by the Business
                                Office.

                                In the new dormitories, we determined that two wiring drops were
                                installed in each of the 16 student rooms and between 24 to 32
                                drops were installed in the common area on each floor. The
                                common areas are approximately 15 feet by 15 feet, have six work
                                station tables, and are not a separate enclosed room. Regarding
                                potential tutoring and classroom instruction in the dormitories, the
                                School did not provide us with teacher schedules or class work
                                plans. While we recognize the benefits of having computer




                                                12
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                resources available to students in the dormitories for research,
                                study, and practice, the requirements (Title 47 CFR § 54.506) are
                                clear that “discounts are not available for internal connections in
                                non-instructional buildings of a school . . . unless those internal
                                connections are essential for the effective transport of information
                                to an instructional building of a school.”

                                Norstan did not install internal connections in all buildings
   Buildings Were Not           approved for service. USAC approved funding to install internal
   Wired                        connections in 17 instructional buildings as requested in the
                                School’s Form 471. Such services would consist of pulling cables
                                from the MDF to the IDF in each building; IDF hardware and
                                wiring; wiring of drops within each of the buildings; and
                                configuration and programming as necessary. Based on our site
                                visit, we determined that 5 of the 17 buildings did not have IDF
                                hardware, wiring, or drops installed. In addition, four of the five
                                buildings did not have cable pulled from the MDF. Norstan and the
                                School, however, indicated that all contract work had been
                                performed and billed. Also, we found that no substitution was
                                requested of or approved by USAC to remove the cost of services
                                for the five buildings from the commitment or substitute the work
                                elsewhere on campus. See the table below for details.




                                                                                               Wired/ Drops
                                                                               IDF Installed
                                                               Instructional




                                                                                                              Cable Pulled
                                                                                                              From MDF
                                                                                               Installed
                                                  Building




                                                               Building




                                                                                               Building
                                                  Name




                                         1. Dodge Hall       No - Dorm         No                 No            No
                                                               Yes
                                         2. Morgan Hall                        No                 No            No
                                                             (Library)
                                         3. MacDonald Hall   No - Dorm         No                 No            No

                                         4. Art Building        Yes            No*                No            No

                                         5. Gym                 Yes            No                 No           Yes
                                     *
                                      Drops for telephone and teacher’s computer provided by wireless
                                     antenna from Ahkeah Hall.
                                We believe that contracted services for IDF hardware and wiring
                                for drops for five buildings have either not been provided or were
                                installed elsewhere on the campus without USAC’s approval, and
                                that contracted services for cabling from the MDF to four buildings
                                has not been provided. In addition, two of these five buildings were




                                                  13
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                not eligible for services because they are not instructional buildings.
                                Since the contract did not specify the goods and services required to
                                wire each of the 17 proposed buildings, we were unable to identify
                                specific questionable costs.

      Navajo Prep’s             The response stated that three buildings (Dodge Hall, Morgan Hall,
      Comments                  and MacDonald Hall) are slated for renovation for future classroom
                                use, therefore were not wired due to anticipated vacancy of the
                                buildings. The response also stated that the three buildings plus the
                                Art building were vacated in May 2003. The School agreed that the
                                Gym should have been wired. (See Appendix 6, page number 32,
                                item number 5 for the School’s complete response to this finding.)

      Office of Inspector       The School provided an explanation of why the work was not done.
      General’s Reply           However, the School certified to USAC that all contract work had
                                been performed and Norstan has billed USAC for this work. The
                                School needs to explain what happened to the contracted services
                                for IDF hardware and wiring for drops for all five buildings and
                                cabling for four buildings.

                                Our inventory of the as-built system showed numerous changes in
   Equipment Was                quantities and product substitutions without USAC approval.
   Not Installed as             USAC approved funding for specific hardware (manufacturer,
   Approved                     model, configuration, and quantity of each) that was to be installed
                                under internal connections for the MDF and the IDF’s in the
                                17 buildings. See Appendix 5 for a comparison of the USAC
                                approved equipment and services with the as-built installed
                                equipment and services.

      Navajo Prep’s             The response stated that the changes in quantities and product
      Comments                  substitutions demonstrated in Appendix 5 of the report are
                                considered minor to keep with upgrades in technology.

      Office of Inspector       The School and Norstan did not obtain USAC approval for product
      General’s Reply           substitutions, nor did they substantiate or identify the equipment
                                and services which it asserts was no longer technologically up to
                                date and thus required substitution. In addition, the School did not
                                provide any contract modifications or change orders to support that
                                all additions, deletions, and substitutions were reviewed and
                                approved by the School. Further, the School did not provide any
                                documentation to demonstrate the impact the substitutions would
                                have on the price of the contracted services. Because of the lack of
                                documentation we were not able to determine whether the
                                numerous changes in quantities and product substitutions
                                constituted only a minor change.




                                                14
Final Report on Audit of the E-rate Program at Navajo Preparatory School



                                The School did not demonstrate that it has the funds needed to fully
   The School’s                 utilize the services acquired under the E-rate Program. Title 47
   Program Support              CFR § 54.504(b)(2)(v) requires schools to certify that they have the
   Funding Appears              necessary funding for any necessary hardware or software, and for
   Insufficient                 the necessary staff training required to use the services effectively.

                                We found that the School’s technology plan did not identify
                                funding or time tables for acquiring planned technology and staff
                                training necessary to use the internal connections, or budgetary
                                resources needed for purchasing the technology and training. The
                                School’s technology plan does not include clearly defined goals,
                                objectives, milestones, or performance measures, so progress has
                                not been measured. The School did provide high level budget
                                information; however; it lacked specific information about the E-
                                rate Program or planned technology expenditures. School
                                personnel told us that the School had a $15,700 grant from the
                                Navajo Nation Trust Fund to purchase computers for the
                                dormitories.

      Navajo Prep’s             Navajo Prep did not agree with this finding. The response stated
      Comments                  that:

                                    The School has provided funds to train essential staff.
                                    Specifically, the following training has been provided for
                                    the Network Administrator and Computer Technician:
                                    Introduction Network Security, SQL Server 2000, and
                                    A+ Certification for Computers. In addition, the
                                    computer teacher and math teacher are scheduled to
                                    attend training offered by the BIA-Technology
                                    Information Center in October 2003 and other staff
                                    members will be scheduled to attend these BIA
                                    trainings…. In addition, a planned technology
                                    expenditure will be developed with staff input within 90
                                    workdays from the date of this report.

                                (See Appendix 6, page 32, item number 7, for the School’s
                                complete response to this finding.)

      Office of Inspector       The School did not provide any documentation to support the
      General’s Reply           training reportedly provided for the Network Administrator and
                                Computer Technician or the amount of funds committed to training.
                                The planned training for the computer and the math teachers will be
                                given during Funding Year 2003, not Funding Year 2001. Also, the
                                School has only about half of the 250 computers it reported on its




                                                15
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                           Form 471 that it would acquire in Funding Year 2001. And, the
                                           School lacked budget or planning information to support when it
                                           might achieve the 250 computer level.

                                           The School’s applications for services and funding certify the need
   Applications for                        for a network based on inflated statements about the number of
   Services Were                           classrooms, instructional buildings, students, and computers which
   Inflated and The                        do not currently exist and are not supported by budgets provided to
   Services Installed                      us. The statements are summarized in the table that follows:
   Were Underutilized




                                                                                                   Instructional
                                                                                      Classrooms




                                                                                                                                Computers
                                                                                                   Buildings


                                                                                                                    Students
                                           Date and Type of Application
       Inflated
       Applications                    December 5, 2000, Form 470,
                                                                                     30                8           None*       450
                                       Funding Year 2001
                                       January 11, 2001, Form 471,
                                                                                     32              15            206         250
                                       Funding Year 2001
                                       December 17, 2001, Form 470,
                                                                                    None             20            None        None
                                       Funding Year 2002
                                       January 14, 2002, Form 471,
                                                                                     81              20            633         772
                                       Funding Year 2002
                                       ___________________________
                                       *
                                           Applications did not contain any data for this category

                                           During our visits to the school in April and May 2003, we
                                           determined that: there were 206 students1; about 90 computers;
                                           24 classrooms; and 8 instructional buildings, three of which did not
                                           have E-rate internal connections installed. We also noted that the
                                           School had built a system with 741 data drops and 53 video drops at
                                           a pre-discounted cost of $2,492,879. As built, the system cost
                                           approximately $12,000 per student or $104,000 per classroom.

       Underutilized                       In addition, we found that the School’s use of network system data
       System                              drops, with computers, printers, and telephones connected was
                                           underutilized as follows:


   1
     The School’s development plan contains three phases. The school has recently completed Phase I which included
   the construction of four new dormitories. The dormitories will house 128 students and are replacing three existing
   dormitories which house 118 students. Phase II which is currently underway in part will renovate and expand the
   three dormitories as academic buildings. Phase III which has not been funded proposes construction of two to four
   new dormitories. If Phase III is fully funded the school projects its enrollment will increase to 300 students.




                                                                16
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                                                Number of         Percent of
                                        Data Drop Usage         Data Drops     System Capacity
                                   Used in classrooms for
                                                                      77              10.4
                                   instructional purposes
                                   Used for administrative
                                                                      77              10.4
                                   purposes
                                   Not used                          587              79.2
                                       TOTALS                        741             100.0
      Navajo Prep’s             Navajo Prep agreed that the inflated applications in the report did
      Comments                  not make sense. Also, the response said that the current student
                                enrollment is 206 students and that proposed enrollment for new
                                school construction is 300 students. In addition, the response stated
                                that the “numbers of data drops and video drops were installed at
                                the advice of the consultant with intent to future-proof classrooms.”

                                Navajo Prep did not agree with the finding on underutilization. The
                                response stated that:

                                    We do not agree with this assessment that was conducted
                                    in June 2003 at the time when school was not in session.
                                    Our current technology utilization is much higher with
                                    increasing potential. The School purchased a software
                                    program called Lightspan that is an online tool used by
                                    teachers.…The School also has the Rubicon Curriculum
                                    Mapping Program…Accelerated and Star Reader
                                    programs…For school year 2003, forty (40) new Dell
                                    computers were installed in two portable buildings and
                                    twelve (12) in the new relocated library.

                                (See Appendix 6, page numbers 32 and 33, item numbers 8 and 9,
                                for the School’s complete response to this finding.)

      Office of Inspector       Our assessment of utilization was conducted during April and May
      General’s Reply           2003, when the School was in session. At the time of our review,
                                more than half of the unused system capacity was located in the
                                four new dormitories which contain 337 drops; however, only 20 of
                                these 337 drops were being used. We recognize this may change
                                when the dormitories are occupied; however, this capacity will still
                                be in ineligible buildings. The other three buildings we consider
                                ineligible contain 34 drops, of which 16 were being used.

                                The software was added after our assessment of utilization.
                                However, such software would only increase the utilization of




                                                17
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                computers already connected to the LAN. Additional hardware and
                                software would be needed to utilize the remaining unused
                                percentage of system capacity.

                                There were only 40 new computers added for the start of School
                                year 2003, and these were installed in two portable buildings and
                                the relocated library. These 40 new computers were connected to
                                the LAN via new drops wired to existing IDF capacity. Assuming
                                that equal numbers of computers and drops were added to the LAN,
                                the result would be a nominal reduction from 79 percent to 75
                                percent of system capacity that is underutilized. We recognize that
                                additional resources (computers, printers, etc.) may be added to the
                                system in the future, however, we do not believe that a system with
                                75 percent of system capacity available to “future-proof
                                classrooms,” is an efficient and effective use of resources.

                                Our review disclosed that the School had the necessary funding to
   Non-Discounted               pay for the non-discounted portion of the cost of E-rate Program
   Portion Paid by              services. Title 47 CFR § 54.504(b)(2)(v) requires schools to certify
   School                       that they have the necessary funding to pay for the non-discounted
                                portion of requested internal connections. The School paid the
                                service provider a total of $249,876 for the non-discounted portion
                                of the internal connections contract price.

      Navajo Prep’s             Navajo Prep stated that it met its matching fund requirement for the
      Comments                  non-discounted portion of the internal connections in the amount of
                                $249,876. (See Appendix 6, page number 32, item number 7, for
                                the School’s complete response to this finding.)

      Office of Inspector       No comment.
      General’s Reply

                                We identified reportable conditions that, while not material,
   Other Matters                represent weaknesses in the School’s administration of the E-rate
                                Program as discussed below.

   BEAR Request                 The School received a separate funding commitment from USAC of
                                $11,700 for telecommunication services to be provided by Qwest
                                Communications. The School submitted its Billed Entity Applicant
                                Reimbursement (BEAR) request late and as a result lost the $11,700
                                of eligible funding. The BEAR form, also known as FCC Form
                                472, is a tool used by schools to request E-rate discount
                                reimbursements for approved services that they have already
                                purchased from the service provider. Under this process, the school
                                pays the service provider in full for services received. This




                                                18
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                payment covers both the USF share (the discounted portion) and the
                                school’s share (the non-discounted portion) of the service. The
                                school should then submit Form 472 to USAC for the USF share of
                                the amount it paid. The service provider must also sign the BEAR
                                form indicating that it will pass back to the school the payment it
                                receives from USAC. After processing the form, USAC sends the
                                payment to the service provider, who must then reimburse the
                                school for the discounted portion of the invoiced costs within ten
                                days following receipt of payment from USAC.

                                The School paid Qwest Corporation in full for the $13,000 cost of
                                services provided throughout the school year, but did not prepare a
                                BEAR Request Form until the end of the school year on June 30,
                                2002. The School’s consultant did not mail the completed BEAR
                                Request Form to USAC until January 27, 2003, almost seven
                                months after it was prepared. According to the School’s network
                                administrator, USAC did not pay the reimbursement because the
                                BEAR Form was received after the expiration date for payment of
                                approved services.

                                The delay in completing the BEAR reimbursement process in a
                                timely manner resulted in the loss of $11,700 of E-rate Program
                                funds which the School could have used to support the E-rate
                                Program or similar technology expenditures.

      Navajo Prep’s             The response attributed this deficiency to a lack of communication
      Comments                  between the consultant and the previous School director and
                                indicated that it will improve control over funds. (See Appendix 6,
                                page number 33, item number 10, for the School’s complete
                                response to this finding.)

      Office of Inspector       No comment.
      General’s Reply

   Use of Consultant            The School relied on a consultant to manage its E-rate Program.
                                The School’s use of the consultant resulted in a loss of management
                                control. School personnel told us that the consultant was an unpaid
                                third-party consultant. We found that the consultant performed
                                numerous tasks which we believe would inherently fall under the
                                duties and responsibilities of School staff over which the School
                                administration should exercise management control. The
                                consultant:

                                  • Prepared, reviewed, and revised the school’s technology plan.
                                  • Prepared and submitted the School’s Form 470 “Description of




                                                19
Final Report on Audit of the E-rate Program at Navajo Preparatory School


                                      Services Requested and Certification Form”. The consultant
                                      was listed on the form as the School’s contact person.
                                      Accordingly, USAC correspondence was sent to the consultant
                                      at his address in Scottsdale, Arizona.
                                  •   Was listed on the Form 470 as “the person on your staff who
                                      can provide additional technical details or answer specific
                                      questions from service providers about the services you are
                                      seeking”.
                                  •   Was identified on the Form 470 as the Technology Planner and
                                      Designer.
                                  •   Prepared and submitted the School’s “Services Ordered and
                                      Certification Form 471”.
                                  •   Prepared the Form 486, Receipt of Service Confirmation Form,
                                      including certification that the technology plan was approved
                                      by OIEP.
                                  •   Received USAC inquiries for additional and/or detailed
                                      information and decided what would be provided to USAC. In
                                      an E-mail response to a USAC inquiry, the consultant
                                      represented that he was the “Contracting Officer
                                      Representative for 7 Bureau of Indian Affairs Schools on the
                                      Navajo Reservation”.
                                  •   Acted as the Contracting Officer’s Representative for Navajo
                                      Prep. In this capacity the consultant, planed, designed, and
                                      administered the contract with the service provider. The
                                      consultant also signed contract documents on behalf of the
                                      school.
                                  •   Submitted the BEAR Form 472.

                                We believe that many of the deficiencies noted in our report were
                                attributable to the work performed by the consultant combined with
                                a lack of management oversight by the School.

      Navajo Prep’s             The response agreed with this finding and stated that this deficiency
      Comments                  has been corrected and training will be provided for key
                                administrative personnel on the management of E-rate projects.
                                (See Appendix 6, page number 34, item number 11, and page
                                number 35, item h, for the School’s complete response to this
                                finding.)

      Office of Inspector       Corrective action appears not to have been implemented. In that
      General’s Reply           regard, we noted that the BEAR request was not properly
                                submitted, and the School continued to certify to USAC that
                                Norstan had performed work and should be paid when they had not
                                ensured that all goods and services had been provided.




                                                 20
  Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                                      APPENDIX 1


                     SCHEDULE OF QUESTIONED COSTS FOR
                     NAVAJO PREPARATORY SCHOOL, INC.,
                 E-RATE COMMITMENT FOR FUNDING YEAR 2001,
                       JULY 1, 2001 THROUGH JUNE 30, 2002

                                                   USAC                                                     Discounted
                                                 Approved                                                   Remaining
                                               Pre-Discounted          Questioned         Remaining          Amount
        Internal Connection                       Amount                Amount             Amount             @90%
PBX System:
 Material                                           $90,775                    $-0-           $90,775           $81,698
 Installation                                        45,880                     -0-            45,880            41,292
   Subtotal PBX System                             $136,655                     -0-          $136,655          $122,990

Local Area Network:
  Material                                         $717,025                 $66,1451         $650,880          $585,792
  Installation                                      277,530                  25,5882          251,942           226,748
    Subtotal Local Area Network                    $994,555                 $91,733          $902,822          $812,540

Cabling and Termination:
 Material                                         $653,205                $435,9883          $217,217          $195,494
 Installation                                      708,464                 472,8714           235,593           212,034
   Subtotal Cabling and Termination             $1,361,669                $908,859           $452,810          $407,528
                  Total                         $2,492,879              $1,000,592         $1,492,287        $1,343,058

  _________________________________________
  1
    See Appendix 2 for details by building.
  2
    Amount determined by calculating questionable local area network switch cost as a percentage of total local area
  network material cost (9.22 percent) and applying the percent to the total approved local area network installation
  cost of $277,530.
  3
    Amount determined by calculating questionable trenching footage and cabling footage to non-instructional
  buildings which are not essential for the effective transport of information to instructional buildings. See Appendix
  4 for details.
  4
    Amount determined by identifying the appropriate questionable trenching installation cost and then determining the
  questionable cabling and termination installation cost. See Appendix 4 for details.




                                                           21
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                                                                                                              APPENDIX 2

              Details of Local Area Network Questioned Costs for Ineligible Intermediate Distribution Frames
                                                     NEW DORMITORIES                          EXISTING DORM     BUSINESS
    LOCAL AREA                                                                                                                 CAFETERIA
                                  GARRETT          ARTHUR          ZAH            BATES           AHKEAH          OFFICE
NETWORK EQUIPMENT                                                                                                                 IDF #9
                                HALL - IDF #4   HALL - IDF #7   HALL - IDF #5  HALL - IDF #6    HALL - IDF #8     IDF #12                      TOTALS
    LOCATED AT
 QUESTIONABLE IDF's                 Questioned      Questioned     Questioned      Questioned      Questioned      Questioned      Questioned     Questioned
                               Qty    Costs    Qty    Costs    Qty    Costs   Qty    Costs     Qty    Costs   Qty     Costs   Qty    Costs    Qty   Costs
Switches1
Intel Express 460T
Standalone Switch with Base    4      $12,188                           2      $6,094                                                                     1      $3,047       7     $21,329
1000 LX Module
Intel Netstructure 470T
                               1       $7,952                           1      $7,952                                                                                         2     $15,904
Switch with Gigabit Module
Intel Express 530T Stackable
Switch with Module for
                                                    3      $7,542       2      $5,028       1         $2,514      1      $2,514       1      $2,514                           8     $20,112
CAT 5 1000 Base LX 22
Ports
Intel Express 535T Stackable
Switch with LX Stack                                1      $2,200                           3         $6,600                                                                  4      $8,800
Module 22 Ports
Uninterruptible Power
Supply
APC Smart-UPS 700              1    Cost Unkn.      1   Cost Unkn.      1   Cost Unkn.      1        Cost Unkn.                                                               4   Cost Unkn.
APC Smart-UPS 450                                                                                                 1   Cost Unkn.      1   Cost Unkn.                          2   Cost Unkn.
APC Smart-UPS 250                                                                                                                                         1   Cost Unkn.      1   Cost Unkn.
Patch Panels, Cabinets &
Racks
Hubbell SpeedGain C5E+
                               1                                        1                   1                     1                   1                   1                   6
Patch Panel 24 Port
Hubbell Fiber Optic Patch           Patch Panels,       Patch Panels,       Patch Panels,        Patch Panels,        Patch Panels,       Patch Panels,       Patch Panels,       Patch Panels,
                               1                    1                   1                   1                     1                   1                   1                   7
Panel LIU 24 Port                   Cabinets and        Cabinets and        Cabinets and         Cabinets and         Cabinets and        Cabinets and        Cabinets and        Cabinets and
Hubbell Next Speed 670 Cat           Racks were          Racks were          Racks were           Racks were           Racks were          Racks were          Racks were          Racks were
                               2                    2                   2                   2                                         1                                       9
5 Patch Panel 48 Port               Approved as         Approved as         Approved as          Approved as          Approved as         Approved as         Approved as         Approved as
Hubbell Next Speed 670 Cat             Part of             Part of             Part of              Part of              Part of             Part of             Part of             Part of
                                    Cabling and     1   Cabling and         Cabling and          Cabling and      1   Cabling and         Cabling and     1   Cabling and     3   Cabling and
5 Patch Panel 24 Port
Hubbell Fiber Termination           Termination         Termination         Termination          Termination          Termination         Termination         Termination         Termination
                               1                    1                   1                   1                     1                   1                   1                   7
Cabinets
Hubbell Wall Mount Racks        1                   1                   1                   1                     1                   1                   1                   7
Total Questioned Costs                $20,140              $9,742             $19,074                 $9,114             $2,514              $2,514              $3,047             $66,145



    1
        See Appendix 3 for cost details



                                                                                                22
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                             APPENDIX 3


              CALCULATION OF QUESTIONED COSTS FOR
               INTERMEDIATE DISTRIBUTION FRAMES
                   BY EQUIPMENT CATEGORIES

      Equipment Categories as                Equipment as Listed            Cost from
     Inventoried at Questionable            on Approved Form 471            Form 471
  Intermediate Distribution Frames              and Invoices               and Invoices
Intel Express 460 Standalone Switch      ES460T/24 Non-Stackable                  $1,598
with Base 1000 LX Module                 10/100 Switch
                                         ES460MSX Gigabit Fiber                   $1,449
                                         Uplink Module-Fiber
                                                                   Total          $3,047

Intel Nextstructure 470T Switch with     ES470F 8 Port Gigabit Fiber              $7,497
Gigabit Module                           Switch
                                         ESGBIC35VSX GBIC Module                    $455
                                         for Gigabit Switch
                                                                   Total          $7,952

Intel Express 530T stackable Switch      ES530T 10/100 Stacking                   $1,644
with Module for CAT 5 1000 Base LX       Switch
22 Ports
                                         ES530MSX Gigabit Fiber                     $870
                                         Uplink Module-Fiber
                                                                   Total          $2,514

Intel Express 535T Stackable Switch      ES535T Stackable 10/100                  $1,330
with LX stack Module 22 Ports            Switch
                                         ES530MSX Gigabit Fiber                     $870
                                         Uplink Module-Fiber
                                                                   Total          $2,200

Uninterruptible Power Supply                                               Indeterminable

Patch Panels, Cabinets and Racks         Approved as Part of Cabling and   Indeterminable
                                         Termination Costs




                                            23
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                APPENDIX 4


          CALCULATION OF QUESTIONABLE COSTS FOR
     TRENCHING, CABLING, AND TERMINATION RELATED TO
       INELIGIBLE INTERMEDIATE DISTRIBUTION FRAMES

    Calculation of Trenching Distance to Non-Instructional Buildings Not
  Essential for Effective Transport of Information to Instructional Buildings      Feet
Main Trunk to Business Office (Building #34)                                               56
Main Trunk to Cafeteria (Building #31)                                                    264
Main Trunk to Arthur Hall (Dormitory #4)                                                  132
Main Trunk to Ahkeah Dormitory (Building #26)                                             151
Main Trunk to Bates Hall (Dormitory #3)                                                   103
Branch from Bates Hall (Dormitory #3) to Zah Hall (Dormitory #2)                          238
Main Trunk to Garrett Hall (Dormitory #1)                                                  91
Total Questionable Trenching                                                         1,035


Total Trenching Footage                                                              3,857
Percent of Trenching Footage that is questionable (1,035 feet/3,857 feet)           26.83%




               Calculation of Questionable Trenching Funding                       Costs
Approved Trenching Material Funding                                                $50,079
Questionable Trenching Material Funding (50,079 X 26.83%)                          $13,438
Approved Total Material Funding for Cabling and Termination Which Includes        $653,205
Trenching
Trenching Material Funding as a Percent of Cabling and Termination Material          7.67%
Funding ($50,079/$653,205)
Approved Overhead Funding for Cabling and Termination                             $708,464
Applicable Installation Funding for Trenching (7.67% X $708,464)                   $54,316
Questionable Trenching Installation Funding (26.83% X $54,316)                     $14,575
Total Questionable Trenching Funding ($13,438 + $14,575)                           $28,013




                                               24
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                               APPENDIX 4


         Calculation of Fiber Optic, Copper, and Coaxial Cabling to
          Non-Instructional Buildings Not Essential for Effective
            Transport of Information to Instructional Buildings                   Feet
MDF to Garrett Hall (Dormitory #1)                                                  1,740
MDF to Zah Hall (Dormitory #2)                                                      1,728
MDF to Bates Hall (Dormitory #3)                                                    1,570
MDF to Arthur Hall (Dormitory #4)                                                   1,260
MDF to Ahkeah Dormitory (Building #26)                                              1,232
MDF to Cafeteria (Building #31)                                                        752
MDF to Business Office (Building #34)                                                  476
Total Questionable Cabling Footage                                                  8,758

Total Cabling and Termination Footage                                              12,500
Percent of total Cabling and Termination Footage that is questionable
(8,758 feet/12,500 feet).                                                         70.06%




       Calculation of Questionable Cabling and Termination Funding               Costs
Approved Cabling and Termination Material Funding Exclusive of Trenching         $603,126
Funding ($653,205-$50,079)
Approved Cabling and Termination Installation Funding Exclusive of Trenching     $654,148
Funding ($708,464 -$54,316)
Questionable Cabling and Termination Material Funding Exclusive of               $422,550
Questionable Trenching Material Funding ($603,126 X 70.06%)
Questionable Cabling and Termination Installation Funding Exclusive of           $458,296
Questionable Trenching Installation Funding ($654,148 X 70.06%)
Total Cabling and Termination Funding Exclusive of Trenching Funding             $880,846
($422,550 + $458,296)



Total Questionable Material Cabling and Termination Funding Including
Trenching ($422,550 +$13,438)                                                    $435,988


Total Questionable Installation Cabling and Termination Funding Including
Trenching ($458,296 +$14,575)                                                    $472,871




                                               25
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                         APPENDIX 5

      USAC APPROVED FORM 471 EQUIPMENT AND SERVICES
   COMPARED TO AS-BUILT INSTALLED EQUIPMENT AND SERVICES

                                                        Form 471 Equipment/ Services   As-Built Installed
                                                           USAC Approved After           Equipment/
                   Equipment Item- Description             Completing PIA Review           Services
                           PBX--Nortel
Clock Controller Card Model NTAK20AD                                 1
Power Supply Model NTAK98AA                                          2
AC-DC Power Supply NTDK78AB                                                                    2
30 Ft or 10M Fiber Daughterboard Model NTDK22AA                      1                         1
Option 11C Single Cabinet (AC) Model NTWB09AA                        1                         1
Option 11C Expansion Cab (AC) Model NTWB09BA                         1                         1
Digital Line Card (DLC) NT8D02GA                                     5                         5
Analog Message Waiting Line CA Model NT8D09BA                        2                         2
Universal Trunk Card Model NT8D14BB                                  2                         2
TMDI Pkg (1.5MB DTI/PRI) NTSF6800                                    1                         1
Option 11C 30 FT or 10 M Expans Model NTDK49BA                       1
Opt 11C Enhanced Bus SW Pkg Model NTSF8021                           1
Adtran T1 CSU ACE with Power Supply Model 395138                     1
C-Pilot 2.0 Base Hardware Package IPE NTUB01AF                                                 1
SSC NTDK20GA                                                                                   1
Ethernet 802.310 Base T Transceiver                                                            1
Fiber Receiver NTDK                                                                            1
Multi Media Processing Card--Nortel MPC-8                                                      2
PIC 83                                                                                         1
3-COM Office Connect Ethernet HUB 8C 3C16701A                                                  1
Plextor Plexwriter 12/10/32S CD-RW                                                             1
Tandberg Data SLR 4/8GB SLR5                                                                   1
U.S. Robotics 56K MODEM V 92 #5686                                                             1
Teltronics System Host 1 Host 2 and Modem SEB2                                                 1

                      DGA System #105680
Pioneer DVD Player DV354                                                                       1
Photoviewer 192KHZ 24 BIT D/A Converter                                                        1
3.5" Floppy Drive                                                                              1
Clock with 3.5" Floppy Drive                                                                   1
52X CD ROM                                                                                     1
Encoder with DVD Player 3210X40 CD-RW and                                                      1
 3.5" Floppy Drive
PANASONIC VHS Video Tape Player AG135 50 Super Drive                                           1
DGA Network Adapter Assembly #212-005 MA V1.01                                                 1
DGA Network Translator Assembly 240-001 MA-V1.01                                               1
Blonder Tongue MIPS-12MIDM/MICM Power Supply                                                   1




                                                   26
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                                        APPENDIX 5

                                                                       Form 471 Equipment/ Services   As-Built Installed
                                                                          USAC Approved After           Equipment/
                    Equipment Item- Description                           Completing PIA Review           Services
                   Local Area Network Hardware
Sprint Model 119D5402 Communications Server                                        1
Microsoft Windows NT Operating System Software                                     1
Sprint Model 118D5404 Server Communication Card                                    1
Sprint Model 118D5067 1-Port Serial Communications Card                            19
Sprint Network File Server for Digital Controller and Routing Switch               1
Model 119K1963
Sprint Model 119K2588 TCP/IP Client Software                                       76
Sprint Model 119D5304 Video Distribution System                                     4
Sprint Model 119K5333 Master FM Antenna                                             1
Intel Model ES520T 12 Port TCP/IP Ethernet Switches                                19
LAN Equipment Rack Sprint                                                           3                         3
Monitors for File Servers Only                                                      3                         1
Intel Model ES480TRD 12+4 Stackable Gigabit Switch with                            10
Redundant Power Supply
Intel Model ES480TRU Layer 3 Software Option for 480TRD                            10
Intel Model ES470F 8 Port Gigabit Fiber Switch                                     5
Intel Netstructure 470T Switch with a GBIC Module                                                             3
Intel Model ESGBIC35VSX GBIC Module for Gigabit Switch                             11
Intel Model ES530T 10/100 Stacking Switch                                          42
Intel Express 530T Stackable Switch with a Module for CAT 5 1000                                             20
BASE LX 22 Ports
Intel Model ES535T Stackable 10/100 Switch                                         40
Intel Express 535T Stackable Switch w/LX Stack Module 22 Ports                                               12
Intel Model ES530MSX Gigabit Fiber Uplink Module-Fiber                             32
Intel Model ES530MTSX Gigabit Fiber Uplink Module-Copper                            1
Intel Model ES460T/24 Non Stackable 10/100 Switch                                   1
Intel Express 460T Standalone Switch w/Base 1000 LX Module                                                    9
Intel Model ES460MSX Gigabit Fiber Uplink Module-Fiber                                                        1
Intel 480TRS 12+4 Stackable Gigabit Switch with                                                               5
redundant power supply
Intel Express 500 Stackable Switch                                                                            1
Gigabit NIC Card Intel Model PRO1000                                                8
PowerEdge Server Model 6450 Dell                                                    8                         2
PowerEdge Server Model 6650 Dell                                                                              6
Tape Backup Dell Power Vault, Metis Thebe 120T DLT 7000                                                       2
APC Power Supply Smart-UPS 1400XL                                                                             1
APC Power Supply Smart-UPS 3000XL with Battery Pack                                                           2
APC Power Supply Smart-UPS 1400                                                                               1
APC Power Supply Smart-UPS 700                                                                                5
APC Power Supply Smart-UPS 450                                                                                3
APC Power Supply Smart-UPS 250                                                                                4




                                                            27
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                                          APPENDIX 5

                                                                         Form 471 Equipment/ Services   As-Built Installed
                                                                            USAC Approved After           Equipment/
                    Equipment Item- Description                             Completing PIA Review           Services
                 Cabling and Termination Services
All 9 Instructional Buildings-24 Strand loose tube                               161,000 feet
Multi-Mode fiber, 50 Pair Cat 3 cable and #500
coaxial cable Model DX24 OCC
Fiber optic, cooper, and coaxial cable for 13 buildings. Cabling                                           37,500 feet
footage of 12,500 feet each for the three cables installed per
As-built schematic drawing prepared by cabling subcontractor.
Termination of all loose tube fibers at both ends using SC connector                 1 job
and power meter test all 24 strands per cable.
Provide and install two-strand multi-mode fiber CMR rated to each                 39,000 feet                 Not
classroom location. Model DX-02 OCC                                                                        Inventoried
Terminate all two strand fibers on the station side using ST connector               480                      Not
in a single gang faceplate, OCC                                                                            Inventoried
Terminate all two-strand fibers in Telecommunications Closet using                  2,300                     Not
ST connectors and power meter test all strands                                                             Inventoried
24X24X19 Wall Mount Racks Model CR1976W Hubbell                                       25
Provide and install (10) 48 port fiber LIUs                                           10
Hubbell Model 59130-00N-48
Provide and install (18) 24 port fiber LIUs                                           18
Hubbell Model 59130-00N-24
Provide and install (23) 12 port fiber LIUs                                           23
Hubbell Model 59130-00N-12
Provide and install (641) Cat 5 Jacks with Plates                                    641                       787
Hubbell Model 5G484-B48
Provide and install (24) 48 port Cat 5 Patch Panels                                   24
Hubbell Model 5G484-B48
OPT Channel LIU Fiber Optic 144 ports                                                                           4
Hubbell Next Speed 670 Cat 5 Patch Panel 48 ports                                                              17
Hubbell Next Speed 670 Cat 5 Patch Panel 24 ports                                                               7
Hubbell Speed Gain C5E+ Patch Panel 24 ports                                                                   12
Hubbell LIU Fiber Optic Patch Panel 24 ports                                                                   13
Surface Conduit System for Voice and Data System (15 linear feet)                     51                       Not
Wiremold 4000 Series                                                                                      Inventoried
NEMA Enclosures, Hammond Eclipse                                                     51                  Not Inventoried
Wire Management for Voice and Data, Hubbell Model,WM-1                               51                  Not Inventoried
2" Stub for Wiremold Connectivity, EMT Model CONDUIT-2                               992                 Not Inventoried
Stainless Steel Underground Enclosure for Voice and                                  22                  Not Inventoried
Data System Hammond Model 2000 Series
Wire Management for Voice and Data Hubbell Model WM-1                                 22                 Not Inventoried
Fiber Termination Cabinets, Hubbell Model 5900 Series                                 22                 Not Inventoried
Underground 4" Conduit System for 9 Instructional Buildings, EMT                      9                  18 according to
Conduit-4                                                                                                  schematic
Trenching for 9 Instructional Buildings                                              1 job
Trenching for 18 Instructional Buildings per subcontractor data.                                            3,857 feet




                                                              28
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                                                       APPENDIX 5

                                                                      Form 471 Equipment/ Services   As-Built Installed
                                                                         USAC Approved After           Equipment/
                    Equipment Item- Description                          Completing PIA Review           Services
Installed data, voice and video connections to 13 buildings
and trenching without pulling cable to 5 additional buildings.                                               1
Installed system includes trenching of 3,857 feet, cabling of
12,500 feet, 14 Intermediate Distribution Frame, and
735 data and 52 video drops.




                                                                 29
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               30
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               31
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               32
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               33
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               34
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 6




                                               35
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 7




                                               36
Final Report on Audit of the E-rate Program at Navajo Preparatory School
                                                                           APPENDIX 7




                                               37
